UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
ACO-046

No. 20-1199
Arthur O. Armstrong
Appellant,
vs.
School District of Philadelphia, et al
(E.D. Pa. No. 2: 99-CV-00825)
Present:

McKee, SHWARTZ and PHILLPS, Circuit Judges.
1. Clerk's submission for Order to show Cause;
2. Response by Appellant to Order to Show Cause.
3. Supplemental Response by Appellant to Order to Show Cause.
.Respectfully,

Clerk/sic
_____________________________________ ORDER________________________________
The foregoing appellant's request for authorization to file this appeal is denied. The
unauthorized appeal is dimissed because it violated the injunction previously imposed
by this Court. See Order Enjoiig filings. In re: Armstrong. No. 05-8029 (3d Cir. Oct. 14,
2005); Order Enjoining Appellant Filings. Armstrong v Sch Dist. of Philadelphia, No
97-1094 3d. Cir. Aug. 14, 1997).

By the Court

/s/ Patty Shwartz,/Circuit Judge
Dated: March 30, 2020.
SL.C/cc: Arthur O. Armstrong

Counsel of Record - true copy
/s/Patricia S. Dodszuweit, Clerk
Patricia S. Dodszuweit Certified Order Issuednin Lieu of Mandate

UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
U.S. COURTHOUSE
INDEPENDENCE MALL WEST
601 MARKET STREET
PHILADELPHIA, PA 19106-1797.
December
23, 2019
Arthur 0. Armsrong
8113 Pleasant Hill Road
Elm City, NC 27822
This office has been directed to return the following document(s) for the following reasons:
( ) Complaint / petition captioned for anorher district / court.
( ) Complaint / Petition does not have caption / case.
( ) Informa Pauperis captioned for another district / court.
( ) petition not on the form provided by the Court.
( ) Letter addressed to an individual that is not at this address.
( ) The Court is not permitted to provide legal advice.
( ) Enclosed oare some forms for your convenience.
(X ) Other: Please review the enclosed Order exlpaining your restrictions on filing in this Court
KATE BARKMAN

Clerk of Court.
ORDER EXPLAINING PETITIONER'S RESTRICTIONS
The Court has determined thatMr.Armstrong's filing frivolous actions and motions
warrants sanctions. Fed. R. App.. 60(b). permits a litigant to seek reief from a final
order. The rule does not permit litigants to file repetitive, frivolous motions seeking
relief from a finla order, motion denied.
APPENDIX B

Constitutional and Statutory Provisions Involved
FOURTEENTH AMENDMENT
All persons bom or nationalized in the United States and is subject to the jurisdiction thereof are
citizens of the United States and of the State wherein they reside. No State shall make or force any laws
which shall abridge any privileges or immunity of citizens of the United States, nor shall any State
deprive any person of life, liberty or property without due process of law, nor deny to any person within
its jurisdiction the equal protection of the law.
FOURTH AMENDMENT
Seizures to be conducted on upon issuance of a warrant juridically sanctioned by probable cause
supported by an oath or affirmation particularity describing the place to be searched and the person or
thing to be seized.
42 U.S.C. 1983 Every person who is under color of any statute, ordinance, regulation, custom, usage
of any State or the District of Columbia subject or caused to be subjected any citizen of the United
States or other person within the jurisdiction thereof to the deprivation of any rights privileges or
immunity secured by the Constitution and laws shall be liable to the party injured in an action at law,
suit in equity or other property proceeding for redress.
42 U.S.C. 1985 &1986
If two or more persons conspire to prevent by force, intimidation, or threats; in the furtherance of
such a conspiracy, where two or more persons conspired to go in disguise on the highway or the
premise thereof for the purpose of depriving,either directly or indirectly the equal protection of the law,
or of equal privileges and immunities under the law;or for the purpose of preventing or hindering the
constituted authorities within any State or Territory from giving or securing to any citizen within any
State or Territory the equal protection of the law shall be liable to the party injured in an action at law,
suit in equity or other proper proceeding for redress.
Rule 56 (a) Summary Judgment — A party may moves for summary judgment on which judgment is
sought. The court shall grant summary judgment if the movant shows that there is no genuine dispute
as to any material fact and that the movant is entitled to judgment in his favor as matter of law.
Judgment
Rule 60(b)(6) states that a court may grant relief from a judgment on any reason justifying relief from
the operation of the judgment. Relief under Rule 60(b)(6) is extraordinary relief, and it is granted in the
interest of justice. This rule is essentially one of equity and fairness.
Rule 15(a) Amendments. A party may amend the party's pleading once as a matter of course at any time
before a responsive pleading is served.

APPENDIX c

